HHS/OIG, Audit -"Credentialing and Privileging Practices at Choctaw Nation,"(A-06-04-00040)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Credentialing and Privileging Practices at Choctaw Nation," (A-06-04-00040)
August 26, 2004
Complete
Text of Report is available in PDF format (505 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report addresses credentialing, privileging, and personnel suitability practices at the Choctaw
Nation Health Care Center (Choctaw Hospital), which is accredited by the Joint Commission on Accreditation of Healthcare
Organizations (Joint Commission).  The hospital completed credentialing and privileging reviews for all 42 practitioners
in our review, as required by Joint Commission standards.  However, Choctaw Hospital did not complete personnel suitability
reviews for these practitioners, as required by the Indian Child Protection and Family Violence Prevention Act of 1990.  Hospital
officials told us that they were unaware of the Act and its requirements for personnel suitability reviews through background
investigations.  During our review, the hospital began to conduct background investigations of practitioners.  We
recommended that Choctaw Hospital continue its efforts to establish written procedures and controls to ensure that background
investigations are performed on all medical staff in accordance with the Indian Child Protection and Family Violence Prevention
Act.  Hospital officials agreed with our recommendation.